No. 19-896
IN THE SUPREME COURT OF THE UNITED STATES
_________________
TAE D. JOHNSON, ACTING DIRECTOR OF
U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT
ET AL., PETITIONERS
v.
ANTONIO ARTEAGA-MARTINEZ
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE PETITIONERS, via email and first-class mail, postage prepaid, this 14th
day of October, 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 6,154
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
October 14, 2021.

Brian H. Fletcher
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
October 14, 2021

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

19-0896
JOHNSON, TAE D. ACTING DIRECTOR OF US ICE,
ET AL.
ANTONIO ARTEAGA-MARTINEZ
MARCIA B. BEVAN
LAW OFFICE OF MARCIA BINDER INBRAHIM
222 SOUTH BROAD STREET
LANSDALE, PA 19446
MBI@GOOD-LAWYER.COM
LAWRENCE J. JOSEPH
LAW OFFICE OF LAWRENCE J. JOSEPH
1250 CONNECTICUT AVE., NW
SUITE 700-1A
WASHINGTON, DC 20036
202-355-9452
LJ@LARRYJOSEPH.COM
PRATIK A. SHAH
AKIN, GUMP, STRAUSS, HAUER & FELD LLP
2001 K STREET, NW
WASHINGTON, DC 20006
202-887-4000
PSHAH@AKINGUMP.COM

VIA EMAIL

